               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Internal Controls and Transportation
            Associated With the
      Springfield, MA Mail Transport
            Equipment Service
                   Center

                       Audit Report




                                          December 20, 2013

Report Number NO-AR-14-001
                                                                     December 20, 2013

                                                  Internal Controls and Transportation
                                                   Associated With the Springfield, MA
                                             Mail Transport Equipment Service Center

                                                         Report Number NO-AR-14-001




BACKGROUND:                                   procedures. Due to a reduced
The mail transport equipment service          workforce, facilities were forced to
center (MTESC) network consists of            prioritize the processing of mail over
15 contractor-operated centers that           managing MTE. Finally, we found that
handle, supply, and transport mail            management needs to reassess the
transport equipment (MTE) — such as           efficiency of MTE-related transportation.
pallets, trays, and tubs — to mail            We identified many cancellations and
processing facilities and U.S. Postal         additions of MTE transportation that
Service customers. The Springfield, MA        occurred because of ongoing
MTESC serves 37 facilities and mailers        operational changes in the processing
in the Northeast Area, costing about          network.
             annually. Our objective was
to assess the internal controls and           We estimate the Postal Service incurred
dedicated transportation activities           about $932,000 and $972,000 in
associated with the Springfield MTESC.        unnecessary costs in fiscal years 2011
                                              and 2012, respectively, and could avoid
WHAT THE OIG FOUND:                           about $952,000 annually by providing
The Postal Service could improve              adequate oversight and ensuring
controls over MTE operations and              compliance with its policies and
transportation at the Springfield MTESC       procedures.
and associated processing facilities.
Management did not have                       WHAT THE OIG RECOMMENDED:
comprehensive controls over contractor        We recommended the vice presidents,
processing, invoicing, repairing, and         Network Operations and Supply
handling of MTE and lacked sufficient         Management, establish adequate
resources to monitor contractor               controls over contractor performance
performance. Further, the Springfield         and ensure there is adequate security.
MTESC did not provide adequate                We also recommended the vice
security over its operations. In addition,    president, Northeast Area, ensure
some processing facilities were violating     compliance with MTE policies for
MTE policies by sending non-MTE and           handling and transporting MTE. Finally,
improper MTE to the Springfield               we recommended management
MTESC. Also, some facilities were not         reassess MTE and transportation
inspecting MTE for mail before sending        requirements to ensure efficiency.
it to the Springfield MTESC. This
occurred because the Postal Service did       Link to review the entire report
not provide sufficient resources to
ensure compliance with its policies and
December 20, 2013

MEMORANDUM FOR:           DAVID E. WILLIAMS
                          VICE PRESIDENT, NETWORK OPERATIONS

                          SUSAN M. BROWNELL
                          VICE PRESIDENT, SUPPLY MANAGEMENT

                          RICHARD P. ULUSKI
                          VICE PRESIDENT, NORTHEAST AREA OPERATIONS


                               E-Signed by Robert Batta
                             VERIFY authenticity with e-Sign




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations

SUBJECT:                  Audit Report – Internal Controls and Transportation
                          Associated With the Springfield, MA Mail Transport
                          Equipment Service Center
                          (Report Number NO-AR-14-001)

This report presents the results of our audit of Internal Controls and Transportation
Associated with the Springfield, MA Mail Transport Equipment Service Center (Project
Number 13XG007NL000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Internal Controls and Transportation                                                                 NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Controls Over Mail Transport Equipment Service Center Contractor and Processing

   Facility Operations ....................................................................................................... 2

Reassessment of Mail Transport Equipment Service Center Transportation

   Requirements............................................................................................................... 6

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Monetary Impact ....................................................................................... 13

Appendix C: Springfield Mail Transport Equipment Service Center Processing Facilities

   and Mailers ................................................................................................................ 18

Appendix D: Mail Transport Equipment Service Center Distribution Flowchart ............. 19

Appendix E: Management's Comments ........................................................................ 20
Internal Controls and Transportation                                                       NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center


Introduction

This report presents the results of our self-initiated audit of Internal Controls and
Transportation Associated with the Springfield, MA Mail Transport Equipment Service
Center (MTESC) (Project Number 13XG007NL000). Our objective was to assess
internal controls and dedicated transportation associated with the Springfield, MA
MTESC. 1 This is the first in a series of reports on the MTESC network. See Appendix A
for additional information about this audit.

The MTESC network is a centrally managed system of contractor-operated service
centers designed to supply pallets, tubs, trays, mailbags, and other mail transport
equipment (MTE) to mail processing facilities and large customers (mailers) nationwide.
The MTESC network delivers MTE to U.S. Postal Service processing facilities2 and
mailers with dedicated transportation, recovers MTE that is no longer needed or
serviceable, and processes MTE for inventory and redistribution.

The Springfield MTESC is in Westfield, MA, in the Postal Service’s Northeast Area. The
MTESC contractor, Hollingsworth Logistics Group (HLG), has operated the facility since
October 2011 under a 3-year contract, with two additional 2-year renewal options. The
Springfield MTESC services 23 Postal Service processing facilities and 14 mailers in
the Northeast Area, which covers New England and upstate New York. See Appendix D
for the MTESC distribution flowchart and additional information. In fiscal year (FY) 2012,
costs for the Springfield MTESC were about              for operations and
for dedicated transportation.

While Postal Service Headquarters controls MTESC operations, the Northeast Area
monitors the dedicated transportation network and manages MTE at processing
facilities. The Postal Service is responsible for establishing controls and overseeing the
MTESC contractor and MTE operations and transportation at associated Postal Service
processing facilities.

Conclusion

The Postal Service could improve controls over MTE operations and transportation at
the Springfield MTESC and associated processing facilities. We found that
management did not have comprehensive controls over contractor processing,
invoicing, repairing, and handling of MTE and lacked sufficient resources to monitor the
contractor. Further, the MTESC did not adequately secure its operations and some
processing facilities were not complying with MTE policies and were sending non-MTE
1
  We announced our audit of the MTESC network on February 26, 2013, with an original objective of assessing the
MTESC network. We revised our objective as noted above to focus on internal controls and transportation at the
Springfield MTESC.
2
  Processing facilities receive outgoing mail from designated associate offices, stations, and branches, or customer
service facilities for processing and dispatch.

                                                      1
Internal Controls and Transportation                                                          NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center

or improper MTE to the MTESC. We also found some processing facilities were not
inspecting MTE for mail before sending it to the MTESC. These conditions occurred
because the Postal Service did not provide sufficient resources at the MTESC and
associated processing facilities to ensure compliance with its policies and procedures.

Finally, we determined that management should reassess the efficiency of
transportation associated with the MTESC. We identified many cancellations and
additions of dedicated MTE transportation that occurred because of ongoing operational
changes in the processing network.

Because of the inadequate control environment, we estimate the Postal Service
incurred about $932,000 and $972,000 in unnecessary costs in FYs 2011 and 2012,
respectively, and could avoid about $952,000 annually over the next 2 years. See
Appendix B for further details regarding our monetary impact calculations.

Controls Over Mail Transport Equipment Service Center Contractor and
Processing Facility Operations

The Postal Service does not have comprehensive and effective internal controls in
place over MTESC contractor performance or Postal Service processing facility MTE
operations associated with the Springfield MTESC.

Insufficient Controls Over Contractor Performance

We found the Springfield MTESC had insufficient contractor performance controls in
place over MTE processing, invoicing, repair, and handling. Specifically, we identified
the following concerns and risks for unnecessary handling and processing costs:

    There is no monitoring, tracking, and documenting of the quantity and type of MTE
     received. Consequently, the contractor may unnecessarily handle and process MTE
     at additional costs.

    There is inconsistent inspection and approval of MTE that might require repair or
     condemnation. 3 As a result, the contractor may improperly classify MTE, resulting in
     unjustified repair and costs.




3
 A product that is so damaged, soiled, or worn that it is classified as beyond repair according to Postal Service
criteria for reparability. Also, an obsolete or unapproved item that is not to be reintroduced into the Postal Service
MTE product stream. Condemned products are sent for disposal or recycling.


                                                            2
Internal Controls and Transportation                                                      NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center


    The MTE random audit function 4 is often turned off when the Postal Service’s
     Quality Assurance (QA) specialist is not available, resulting in a lack of consistent
     MTE quality checks by the contractor.

    The Postal Service does not monitor contractor operations during one of the two
     shifts at the MTESC. As a result, the contractor may be performing unnecessary
     functions.

These conditions occurred because management eliminated many of the previously
assigned positions dedicated to performing the required QA duties at the MTESC,
including validating items needing repairs.

Insufficient Security Over Contractor Operations

During our observations of the Springfield MTESC yard, we found that multiple access
points were left open, with no security monitoring or access control. In addition, the yard
contained some unlocked trailers loaded with MTE and trailers were picked up and
dropped off during non-operating hours. The contractor statement of work (SOW)5
requires the contractor to provide security and access control to the ground and trailer
parking areas, including access control of inbound and outbound trailers at all times.

Although the contractor provided some level of security required by the contract, the
Postal Service did not ensure the coverage provided was sufficient to protect its assets.
For example, the contractor stated it would provide security guard services at the facility
for $76,700 and $77,076 in FYs 2011 and 2012, respectively; however, the contractor
did not provide the services. As a result, the Postal Service paid $153,776 for services it
did not receive and could avoid $154,152 over the next 2 years. See Appendix B for
additional information.

Non-Compliance With MTE Policy and Processes

Postal Service facilities were not fully complying with the Postal Service’s MTE Return
Handling policy on effective management and distribution of MTE. There are two main
components of the MTE Return Handling policy — reuse and redistribution of MTE at
processing facilities and return of ‘excess’ tubs and trays to the MTESC.

We found that the processing facilities were generally adhering to the reuse and
redistribution of MTE locally to facilities and mailers before sending it to the MTESC;
however, processing facilities did not always properly palletize, stack to height
requirements, sufficiently shrink wrap, and properly label for tracking excess tubs and
trays dispatched to the MTESC. This occurred because Postal Service management did

4
  Part of the Mail Transport Equipment Support System (MTESS), which generates a sample of about 5 percent of
processed pallets (roughly 100 pallets a day) to be audited and cleared by the QA specialist. The number of items to
audit can vary depending on the item type, as well as whether an item selected has to go back for rework.
5
  SOW, Section 3.1.12, Revision 3, Change 12, dated September 1, 2010.


                                                          3
Internal Controls and Transportation                                                        NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center

not have dedicated resources at the processing facilities for effective MTE management
and oversight. Because they were short-staffed processing facilities had to choose
between processing mail and managing MTE.

                              Figure 1. Improper and Poorly Prepared
                              Plant Processed Finished Goods (PPFG)




         Poorly prepared PPFG trays at the MTESC               MTE loaded in containers at the Manchester
                                                               March 19, 2013. Processing and Distribution Center
                                                               (P&DC), May 15, 2013.

         Source: U.S. Postal Service Office of Inspector General (OIG).

Consequently, the Postal Service incurred unnecessary processing costs at the
Springfield MTESC totaling about $539,060 and $449,330 for FYs 2011 and 2012,
respectively. In addition, the Postal Service has an opportunity to save about $494,000
annually in unnecessary processing costs over the next 2 years. See Appendix B for
additional information.

Improper Handling of Shoring Straps

The Postal Service's processing facilities did not always properly handle, store, and
maintain shoring straps. 6 We observed over a dozen gaylord containers 7 at the MTESC
filled with shoring straps sent by processing facilities for inspection and processing.
According to Postal Service policy, 8 shoring straps are classified as non-MTE and
should not be sent to an MTESC for inspection and processing. We also found that
processing facilities were not using ‘J’ 9 hooks in the trailers to hang unused shoring
straps to keep them off the floor and protect them. Employees were leaving straps on
trailer or dock floors where they were damaged by forklifts and other heavy equipment.

6
  Shoring straps are made of nylon belting with a ratchet mechanism with ‘E’ track fittings on each end of the strap.
Two restraining devices are required every 10 feet in a loaded trailer to secure containers and pallets from
moving/shifting while in transit. Shoring straps are to remain with a trailer and be placed out of the way when not in
use and during unloading.
7
  Gaylord containers are pallet-size boxes used for shipping mail in bulk quantities and are usually constructed of
triple wall corrugated fiberboard that fits on standard pallets.
8
  Handbook PO-701, Fleet Management, Exhibit 274.b and 276.m, states that shoring straps are to be kept off the
floor when not in use.
9
  ‘J’ hooks are placed inside trailers to use with shoring straps when not in use. Hanging shoring straps on 'J' hooks
prevents the straps from being damaged by containers and prevents forklifts from running over them on the floor.


                                                           4
Internal Controls and Transportation                                                     NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center


                                    Figure 2. Damaged Shoring Straps




            Damaged straps at the Springfield MTESC,        Mishandling of straps at the Hartford P&DC,
            March 18–21, 2013.                              May 14, 2013.

           Source: OIG.

This occurred because Northeast Area management did not enforce its policies and
hold drivers accountable for effective use and safeguarding of shoring straps. We
determined that the Northeast Area purchased over            shoring straps at a cost of
           in FY 2011 and            in FY 2012. If the Northeast Area enforces its
policies to maintain and safeguard shoring straps, it could save about $346,864
annually over the next 2 years. See Appendix B for additional information.

Improperly Dispatching Over-the-Road Containers (OTRs) to the MTESC

We found that processing facilities sometimes used OTRs to transport empty MTE to
the MTESC instead of following policy and preparing and sending MTE on pallets. We
determined that processing facilities were not adhering to the requirements of the OTR
policy, 10 which states that only OTRs needing repair are to be dispatched to an MTESC.
As a result, the Springfield MTESC is unnecessarily handling OTRs and the Northeast
Area incurred unnecessary handling expenses of $31,971 in FY 2011 and $36,816 in
FY 2012. Further, the Northeast Area could avoid $34,394 annually over the next
2 years if the MTESC follows the OTR policy. See Appendix B for additional information.

Improperly Leaving Mail in MTE Sent to the MTESC

The Postal Service is not ensuring that processing facilities thoroughly inspect empty
MTE for lost or misplaced mail before dispatching it to the MTESC as required. We
observed that some MTE arriving at the Springfield MTESC from processing facilities
contained time-sensitive Priority and First-Class Mail (see Figure 3). For example, some
of the personal and sensitive items were from an eyewear manufacturer, a dental
laboratory, and a pharmacy. This occurred because management did not adequately
enforce policies that require inspection of MTE for mailpieces before dispatching it to an
MTESC.

10
     OTR Container Usage Standard Operating Procedures, dated August 28, 2009.


                                                        5
Internal Controls and Transportation                                                           NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center


                 Figure 3. Examples of Found Mail at the Springfield MTESC




          Source: OIG photographs taken March 18-21, 2013.

We also observed an accumulation of mail in equipment sent to the MTESC that was
not picked up timely by the assigned processing facility. This occurred because the
MTESC and the Postal Service did not ensure mail found in MTE was picked up daily.
According to the MTESC SOW, mail found at an MTESC must be dispatched daily for
processing. Mail that is not delivered, or is delivered late, reflects poorly on the Postal
Service's brand and public image and leaves the agency open to customer complaints.

Reassessment of Mail Transport Equipment Service Center Transportation
Requirements

Our review of data contained in the Transportation Information Management Evaluation
System (TIMES) 11 and MTESS 12 revealed that existing MTESC transportation was not
being maximized because extra trips were being added to move excess MTE, and
some MTESC trips were being cancelled. We also determined that the Northeast Area
had not reviewed its MTE needs (standing orders)13 regularly and, in some cases, had
not done so since 2011.

Generally, over the past several years the Postal Service has made many changes to
both the MTESC network and the Postal Service infrastructure and continues to
consolidate processing facilities. These changes have impacted operations, resources,
standing orders, distribution of MTE, and MTESC transportation requirements in the
Northeast Area. For example, transferring or changing outgoing operations caused an
imbalance in MTE flow among facilities. Further, processing facilities’ standing orders
have changed, reducing what the facilities need from the MTESC and causing
transportation from the MTESC to the processing facilities to often run empty.

11
   A web-based application that enables dock clerks to collect data on the arrival and departure of mail trucks and
communicate that information to other processing facilities. The application tracks trailer ‘utilization’ data and acts as
the interface and foundation for surface visibility data.
12
   MTESS supports 15 MTESCs. It tracks MTE history and supports processing orders to Network Distribution
Centers (NDC), P&DCs, major mailers, and commercial warehouses.
13
   Standing orders are for both internal and external customers with steady, reoccurring requirements. All Postal
Service processing facilities developed MTE standing orders to fill long-term, reoccurring deficiencies.


                                                             6
Internal Controls and Transportation                                      NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center


We found that the Northeast Area did not reassess MTE and transportation
requirements to factor in the network changes. In accordance with Postal Service
policy, 13 transportation schedules should be periodically reviewed and updated as
necessary. As a result, the Northeast Area sent unnecessary MTE to processing
facilities and paid for transportation that might not have been needed.

Recommendations

We recommend the vice president, Network Operations, in coordination with the vice
president, Supply Management:

1.       Establish adequate controls over contractor performance and ensure adequate
         resources for the quality assurance function for effective oversight and monitoring
         of contractor operations at the Springfield Mail Transport Equipment Service
         Center, including processing, invoicing, repairing, and handling of mail transport
         equipment.

2.       Ensure the contractor at the Springfield Mail Transport Equipment Service Center
         provides adequate security and access control to the ground and trailer parking
         areas, including access control of inbound and outbound trailers at all times.

We recommend the vice president, Northeast Area Operations:

3.       Ensure area and plant management monitor compliance with the established
         policies and procedures for mail transport equipment return handling procedures at
         processing facilities, dispatch and proper use of over-the-road containers, and
         proper storage, handling, and maintenance of shoring straps.

4.       Reinforce the requirement that processing facilities conduct thorough inspections
         of mail transport equipment being sent to the Springfield Mail Transport Equipment
         Service Center to ensure it does not contain any mail and ensure any found mail at
         the center is picked up daily for further processing.

5.       Reassess mail transport equipment standing orders and transportation schedules
         for all processing facilities as necessary to ensure they are up-to-date and efficient
         given the operational changes and imbalance of mail transport equipment flow.

Management’s Comments

Management agreed with all of our findings and recommendations, but did not agree
with all of the reported monetary impact related to security over contractor operations.

In response to recommendation 1, management stated it will conduct a staffing analysis
of the quality positions at the Springfield MTESC to ensure adequate resources are in
13
     Postal Operations Manual, Sections 473.5, and 512.122.


                                                          7
Internal Controls and Transportation                                     NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center

place. It will also establish a modified flexible schedule for the quality specialist to
improve internal controls over and monitoring of the contractor’s performance. The
target completion date for this recommendation is April 25, 2014.

In response to recommendation 2, management stated the supplier has provided
security services in accordance with the contract; however, management agreed that
access controls for the facility could be enhanced to further reduce risks. Therefore, the
contractor is negotiating to have fencing and a security gate with keypad entry installed
on the property by March 31, 2014. Management did not agree with the $153,776 in
questioned costs and the $154,152 in funds put to better use associated with security
services because this is a fixed price contract. Management stated that, while security is
a contract requirement, the specific use of security guard services is not a component
line item of the fixed price and is not a pass-through cost. According to the contract
terms, the supplier is required to manage the security of equipment at the site and has
adequately managed the risk to date.

In response to recommendation 3, area and local management agreed to take action to
communicate and monitor MTE policies and procedures for handling and dispatching
MTE. Management will ensure that plants understand MTE handling procedures for
processing facilities covering palletizing, stacking, and shrink wrapping excess trays;
OTR container usage; and proper handling, repair, and disposal of shoring straps.
Further, highway contract route (HCR) vehicles will be reviewed to ensure compliance
with the use of ‘J’ hooks and HCRs not in compliance will be cited. Further, distribution
network personnel will incorporate MTE as part of their facility visit reviews and
follow up on non-compliance issues and corrective action. The target implementation
date for this recommendation is January 24, 2014.

In response to recommendation 4, management stated it revised the transportation
schedule for picking up found mail at the Springfield MTESC. The pick-up trip will now
be at 1400 Monday through Friday to collect all mail found during daily MTESC
operating hours. The requirement to search and remove mail from empty MTEs will be
reinforced at all facilities. Further, the MTESC Postal Service liaison will report the origin
of any mail found in MTE to the district for corrective action with the facility. The target
completion date for this recommendation is January 3, 2014.

Finally, in response to recommendation 5, area management will review all MTESC
HCR service and conduct a site visit to identify underused trips for proposed
consolidation or termination. Additionally, all facilities will review their standing orders
after peak season to verify their MTE needs. The target completion date for this
recommendation is April 14, 2014. See Appendix E for management’s comments in
their entirety.




                                               8
Internal Controls and Transportation                                 NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Regarding the monetary impact for security services, we found that multiple access
points were left open with no security monitoring or access control. We determined that
the lack of access control and adequate monitoring increased risks of improper access
to or theft of Postal Service assets regardless of the nature of the contract. Therefore,
we still consider our monetary impact valid; however, we commend the Postal Service
for working with the Springfield MTESC contractor to ensure that there is adequate
fencing and access control in the yard to reduce risks to Postal Service assets. This
addresses the intent of our recommendation.

The OIG considers all the recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            9
Internal Controls and Transportation                                   NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center


                                  Appendix A: Additional Information

Background

The MTESC network is a centrally managed system of 15 contractor-operated service
centers designed to supply pallets, trays, tubs, mailbags, and other MTE to mail
processing facilities and mailers requiring trailer loads of MTE nationwide. The Postal
Service transformed the MTESC network in FY 2010 and the number of centers went
from 23 to 15. The MTESC network was re-engineered to optimize its design, minimize
surplus and deficit MTESC locations, and reduce fixed and transportation costs. The
MTESC network delivers MTE to users with dedicated transportation, recovers
equipment that is no longer needed or serviceable, and processes MTE for inventory or
redistribution.

The vice president, Network Operations, through the headquarters manager of MTE, is
responsible for managing MTESCs and establishing guidelines, enforcing policy, and
providing management support and instructions on distribution, inventory warehousing,
auditing, and reporting of MTE. MTESC contracts are managed using contracting officer
representatives at the headquarters MTE branch. Responsibility for acquisition,
distribution, supply, and transportation of MTE between MTESCs lies at headquarters
MTE. Each MTESC is assigned a QA specialist to serve as a technical representative
who will perform audits to ensure contractor compliance with contract specifications and
enforce requirements regarding equipment processing, repairs, and condemnation.

The Postal Service spends about $65 to $90 million annually on MTE that is used at
about 400 processing facilities and 26,775 post offices and by thousands of external
customers. Because the Postal Service processes, transports, and delivers millions of
mailpieces daily, it requires a significant amount of MTE within and among its facilities,
customers, and contractors.

Objective, Scope, and Methodology

Our objective was to assess internal controls and transportation at the Springfield
MTESC. 14 This is the first in a series of reports on the MTESC network. To address our
objective, we obtained, assessed, and analyzed Postal Service computerized data on
MTE processing and transportation. We also examined relevant Postal Service policies
and procedures and the terms and conditions of the HLG contract related to operation
of the Springfield MTESC, and observed and photographed operations at the MTESC
and the processing facilities and mailers it serviced. See Appendix C for additional
information. We also reviewed prior OIG reports and Postal Service documents; and
spoke with Postal Service management and staff, mailers, and HLG.

We examined Postal Service computer-generated data and other records. We did not
audit or comprehensively validate the data; however, we applied alternative audit
14
     The original audit objective was to assess the MTESC network.


                                                          10
Internal Controls and Transportation                                                  NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center


procedures, such as examining source documents, making observations, conducting
physical inspections, and talking with the appropriate officials. We also discussed our
observations and conclusions with management officials throughout our audit work,
considered their perspectives, and included their comments where appropriate.

Regarding our assessment of transportation, we did not attempt to fully assess MTESC
transportation for the Springfield MTESC because of the changing operating
environment at the Postal Service. We believe that ongoing assessments should be
performed as necessary to factor in network changes and ensure efficiency.

We conducted this audit from October 2012 through December 2013, in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on November 4, 2013, and included its
comments where appropriate.

We assessed the reliability of MTESS, TIMES, the Transportation Contracting Support
System (TCSS), 15 and Contracting Award Management System 16 data by reviewing
existing information about the data and the system that produced them. We
experienced data limitations with the MTESS and TIMES data systems; however, as
noted above, we applied compensating steps to overcome data concerns. We believe
the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

There have been no audits of the MTESC network in the past 3 years. However, the
OIG conducted an audit of MTE controls titled Mail Transport Equipment -Shortages of
Pallets, Tubs, and Trays — Fall 2011 Mailing Season (Report Number NL-AR-12-011,
dated September 28, 2012). We confirmed that unprecedented MTE shortages existed
at Postal Service facilities and for mailers during the fall 2011 mailing season. This
occurred because management did not effectively plan to have sufficient quantities on
hand or develop a risk mitigation plan to avoid shortages. In addition, management had
not fully developed and instituted adequate controls for effective MTE management. We
recommended the Postal Service develop processes and procedures for effective
planning of and budgeting for MTE needs for the fall mailing season, implement prior
OIG recommendations over MTE internal controls, and develop processes and
procedures to limit distribution and improve accountability of MTE provided to mailers.
15
   An Oracle web-based application used to manage transportation contracts and related activities. TCSS allows
contracting offices to solicit, award, and administer transportation contracts.
16
   Used by Supply Management to issue contracts and purchase orders to procure supplies, services, and equipment
(including transportation services, excluding HCRs).



                                                       11
Internal Controls and Transportation                                NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center


We also recommended that management assess and implement industry best practices
for inventory control, considering the cost benefit. Management agreed with our findings
and recommendations.




                                           12
Internal Controls and Transportation                                                    NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center

                                    Appendix B: Monetary Impact

We concluded that the Postal Service incurred about $932,000 for FY 2011 and
$972,000 for FY 2012 in unnecessary costs and could avoid about $952,000 in
unnecessary costs annually over the next 2 years by providing adequate oversight and
ensuring compliance with policies and procedures.

                                                                                            Amount
   Recommendations                         Impact Category                                (in millions)
        2, 3                        Questioned Costs 17                                          $1,904,681
        2, 3                        Funds Put to Better Use 18                                     1,905,058
 Total                                                                                           $3,809,739

                                             Impact Summary
                     MTE
                    Return                                           OTR
                   Handling                    Security           Processing Shoring
  Fiscal Year       Policy                     Services              Costs    Straps     Total
      2011        $539,060                     $76,700              $31,971  $284,729 $ 932,460
      2012        $449,330                     $77,076              $36,816  $408,999    972,221
Total Questioned Costs                                                                $1,904,681

      Year 1      $494,195                      $77,076              $34,394         $346,864 $ 952,529
      Year 2      $494,195                      $77,076              $34,394         $346,864    952,529
Total Funds Put to Better Use                                                                 $1,905,058

                Table 1. MTE Return Handling Policy – Questioned Costs
                                                Percentage
                   Total Trays Percentage            of        Dollar Amount for
     Fiscal Year    and Tubs       of PPFG     Processed19         Processed
        2011        12,662,364          29%             71%              $539,060
        2012            12,345,142                   16%                    84%                        449,330
 Questioned Costs                                                                                    $988,390
Source: OIG analysis.

Using MTESS data, we obtained the total number of trays and tubs the Springfield
MTESC received for processing (9,020,770 for FY 2011 and 10,322,422 for FY 2012)
and the associated amounts invoiced ($539,060 for FY 2011 and $449,330 for FY
2012). We also obtained the number of trays and tubs the MTESC received and
classified as PPFG (3,641,594 for FY 2011 and 2,022,720 for FY 2012).

17
   Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, etc. May be
recoverable or unrecoverable. Usually a result of historical events.
18
   Funds that could be used more efficiently by implementing recommended actions.
19
   ’Processed’ as used in Tables 1 and 2 refers to tubs and trays that required processing at the MTESC because
they were not properly prepared by the facilities as required.


                                                        13
Internal Controls and Transportation                                  NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center


We used a 100 percent compliance cap, based on MTE return handling procedures for
facilities, which requires processing facilities to return all excess trays and tubs as
PPFG. Therefore, the monetary impact is equal to the invoiced amount for processed
trays and tubs received ($539,060 for FY 2011 and $449,330 for FY 2012). See Table
1.

            Table 2. MTE Return Handling Policy – Funds Put to Better Use



                                                   Estimated Dollar Amount for
                     Future Year                           Processed
                          1                                           $494,195
                          2                                            494,195
              Funds Put to Better Use                                 $988,390
             Source: OIG analysis.

   We used an average of the invoiced amount for trays and tubs for FYs 2011 and
   2012 to estimate the amount of potential savings over future years
   ($988,390 ÷ 2 = $494,195). See Table 2.

     Table 3. Northeast Area Purchases of Shoring Straps – Questioned Costs

                                                                       Cost Less
                                                         20 Percent    Allowance
                            Shoring                      Allowance         for
              Fiscal         Straps         Total            for       Necessary
               Year        Purchased        Cost        Replacement   Replacement
               2011                                                    $284,729
               2012                                                     408,999
               Total                                                   $693,728***
              Questioned Costs                                         $693,728
             Source: OIG analysis.

               *Rounded from
              **Rounded from
             ***Rounded from $693,727.66.

We identified new purchases of shoring straps during our review of the Springfield
MTESC for FYs 2011 and 2012. We calculated shoring straps the Northeast Area
purchased using eBuy.




                                              14
Internal Controls and Transportation                                    NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center

For FY 2011 data, we summed all eBuy quantities and the dollar total. For FY 2012
data, there were two unit costs and we did a sum calculation to obtain quantities for
       per unit cost. We then subtracted this per unit cost from total quantities to
determine total quantities for the latest          unit cost. We multiplied       by total
quantities of        to determine total cost at that rate and multiplied         by total
quantities of          to determine total cost of straps purchased at that rate.

To determine the allowance for replacing straps following their useful life, we did
research to determine the useful life for straps and other freight equipment. Based on
our research, we found criteria supporting as few as 3 years and as many as 8 years of
useful life. To be conservative, we estimated a 5-year useful life and a 20 percent per
year replacement figure. We then took a 20 percent allowance and multiplied that by
each fiscal year's total purchases to determine allowance and the final dollar impact.
See Table 3.

 Table 4. Northeast Area Purchases of Shoring Straps – Funds Put to Better Use

                                                     Estimated Future Cost
                       Future Year                     of Shoring Straps
                             1                                     $346,864
                             2                                       346,864
                Funds Put to Better Use                            $693,728

              Source: OIG analysis.

We estimated funds put to better use by taking the 2-year total for FYs 2011 and 2012
and averaging the amount over the next 2 years ($693,728 ÷ 2 = $346,864). See
Table 4.

                       Table 5. OTR Processing – Questioned Costs

                                                                  Invoiced
                Fiscal Year                Number of OTRs         Amount
                    2011                       6,658                   $31,971
                    2012                       7,462                    36,816
              Questioned Costs                                         $68,787
             Source: OIG analysis.

Serviceable OTRs were identified during our review of Springfield MTESC processing
costs in MTESS reports for FYs 2011 and 2012. Serviceable is MTE equipment that
meets Postal Service criteria for use as is, without needing repair or modification.




                                                15
Internal Controls and Transportation                               NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center

We obtained the amount of serviceable OTRs processed at the Springfield MTESC for
FYs 2011 and 2012 using the MTESS. The amount of processed serviceable OTRs was
$31,971 for FY 2011 and $36,816 for FY 2012. See Table 5.

                   Table 6. OTR Processing – Funds Put to Better Use

                                              Estimated Future Cost of
                   Future Year               Handling Serviceable OTRs
                         1                                        $34,394
                         2                                         34,394
              Funds Put to Better Use                             $68,788
            Source: OIG analysis.

We estimated funds put to better use by taking the 2-year total for FYs 2011 and 2012
and averaging the amount over the next 2 years ($68,788 ÷ by 2 = $34,394). See Table
6.

                        Table 7. Security Service – Questioned Costs



                          Fiscal Year         Operating Expense Line
                                             Item for Security Service
                           2011                                $ 76,700
                           2012                                  77,076
                     Questioned Costs                          $153,776
                 Source: OIG analysis.

We reviewed the pricing sheet, a part of the contract between the Postal Service and
HLG. As part of ‘Other Basic Operations’ — a fixed cost the Postal Service pays
monthly — ‘Security Guard Services’ is a component line item totaling $6,423 each
month ($6,235 during the first 2 start-up months). The Postal Service paid $76,700 to
the contractor for service never provided in FY 2011 and $77,076 for service never
provided in FY 2012. See Table 7.




                                             16
Internal Controls and Transportation                              NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center


                   Table 8. Security Service – Funds Put to Better Use


                                                  Security Service
                                                 Expense for Future
                       Future Year                    Years
                             1                                 $ 77,076
                             2                                   77,076
                  Funds Put to Better Use                     $154,152
                Source: OIG analysis.

We used the same monthly amount of $6,423 to calculate funds put to better use. Over
2 years, this amount will be $154,152 ($77,076 x by 2 years). See Table 8.




                                            17
Internal Controls and Transportation                                       NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center

  Appendix C: Springfield Mail Transport Equipment Service Center Processing
                             Facilities and Mailers

                                                                        On-site
        Mailer and/or Processing                                      Observations
                 Facility                       City and State         Conducted
       Albany P&DC                         Albany, NY                      X
       Boston P&DC                         Boston, MA                      X
       Brockton P&DC                       Brockton, MA                    X
       Burlington P&DC                     Essex Junction, VT
       Central P&DC                        Shrewsbury, MA                  X
       Data Mail                           Newington, CT
       DHL Global Mail                     Franklin, MA                    X
       Dingley Press                       Lisbon, ME
       Direct Mail Services                Windsor, CT
       DST Mailing Services                South Windsor, CT               X
       Eastern Maine P&DC                  Hampden, ME
       FedEx Smart Post                    Northborough, MA                X
       Hartford P&DC                       Hartford, CT                    X
       Manchester P&DC                     Manchester, NH                  X
       Middlesex Essex P&DC                North Reading, MA               X
       Moore Graphics                      Windsor, CT
       Nashua PMPC                         Nashua, NH                      X
       Northwest Boston P&DC               Waltham, MA                     X
       Norwich P&DC                        Norwich, CT                     X
       Pitney-Bowes Presort Services       Windsor, CT
       Pitney-Bowes Presort Services       Hartford, CT                    X
       Plattsburgh P&DC                    Plattsburgh, NY
       Polaris Direct                      Hooksett, NH                    X
       Portland P&DC                       Scarborough, ME
       Portsmouth P&DC                     Portsmouth, NH
       Providence P&DC                     Providence, RI                  X
       Quad Graphics                       Saratoga Springs, NY
       Southern P&DC                       Wallingford, CT                 X
       Springfield P&DC                    Springfield, MA
       Springfield NDC                     Springfield, MA
       Syracuse P&DC                       Syracuse, NY
       UPS Mail Innovations                Windsor, CT
       Utica P&DC                          Utica, NY
       Valassis Direct Mail Inc.           Windsor, CT
       Waterbury P&DC                      Waterbury, CT                   X
       Wawilde Company                     Holliston, MA                   X
       White River Junction P&DF           White River Junction, VT




                                                       18
Internal Controls and Transportation                                                       NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center


   Appendix D: Mail Transport Equipment Service Center Distribution Flowchart

The MTE network consists of the MTESC, Postal Service processing facilities, and
business mailers. Large mailers and processing facilities place orders for their MTE
through Mail Transport Equipment Online Ordering (MTEOR), the MTE order fulfillment
system. MTE is shipped via dedicated transportation. Smaller mailers may order MTE
from their local facilities.




      Source: OIG analysis.

    Note: Processing facilities also provide excess MTE to local mailers and other facilities.




                                                         19
Internal Controls and Transportation                           NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center


                           Appendix E: Management's Comments




                                           20
Internal Controls and Transportation            NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center




                                           21
Internal Controls and Transportation            NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center




                                           22
Internal Controls and Transportation            NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center




                                           23
Internal Controls and Transportation            NO-AR-14-001
 Associated With the Springfield, MA
 Mail Transport Equipment Service Center




                                           24
